<html>
<title> - IS SECURE COMMUNITIES KEEPING OUR COMMUNITIES SECURE?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
           IS SECURE COMMUNITIES KEEPING OUR COMMUNITIES SECURE?

=======================================================================



                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                   IMMIGRATION POLICY AND ENFORCEMENT

                                 OF THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                           NOVEMBER 30, 2011

                               ----------                              

                           Serial No. 112-69

                               ----------                              

         Printed for the use of the Committee on the Judiciary


   Available via the World Wide Web: http://judiciary.house.gov 





                  U.S. GOVERNMENT PRINTING OFFICE
00-000                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             [Vacant]
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

      Sean McLaughlin, Majority Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

           Subcommittee on Immigration Policy and Enforcement

                  ELTON GALLEGLY, California, Chairman

                    STEVE KING, Iowa, Vice-Chairman

DANIEL E. LUNGREN, California        ZOE LOFGREN, California
LOUIE GOHMERT, Texas                 SHEILA JACKSON LEE, Texas
TED POE, Texas                       MAXINE WATERS, California
TREY GOWDY, South Carolina           PEDRO R. PIERLUISI, Puerto Rico
DENNIS ROSS, Florida

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel


                            C O N T E N T S

                              ----------                              

                           NOVEMBER 30, 2011

                                                                   Page

                           OPENING STATEMENTS

The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California, and Chairman, Subcommittee on 
  Immigration Policy and Enforcement.............................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration Policy and Enforcement.............................     2
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Chairman, Committee on the Judiciary.......     6

                               WITNESSES

Gary Mead, Executive Associate Director, Enforcement and Removal 
  Operations, U.S. Immigration and Customs Enforcement, United 
  States Department of Homeland Security
  Oral Testimony.................................................     8
  Prepared Statement.............................................    10
Julie Myers Wood, President, ICS Consulting, LLC
  Oral Testimony.................................................    17
  Prepared Statement.............................................    20
Sam Page, Sheriff, Chief Law Enforcement Officer, Rockingham 
  County, NC
  Oral Testimony.................................................    27
  Prepared Statement.............................................    29
Arturo Venegas, Jr., Project Director, Law Enforcement Engagement 
  Initiative
  Oral Testimony.................................................    38
  Prepared Statement.............................................    40

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration Policy and Enforcement.............     4
Material submitted by the Honorable Maxine Waters, a 
  Representative in Congress from the State of California, and 
  Member, Subcommittee on Immigration Policy and Enforcement.....    55
Material submitted by the Honorable Steve King, a Representative 
  in Congress from the State of Iowa, and Member, Subcommittee on 
  Immigration Policy and Enforcement.............................    64

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Lamar Smith, a Representative 
  in Congress from the State of Texas, and Chairman, Committee on 
  the Judiciary..................................................    67
Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration Policy and Enforcement.............    68


         IS SECURE COMMUNITIES KEEPING OUR COMMUNITIES SECURE?

                              ----------                              


                      WEDNESDAY, NOVEMBER 30, 2011

              House of Representatives,    
                    Subcommittee on Immigration    
                            Policy and Enforcement,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 1:40 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Elton 
Gallegly (Chairman of the Subcommittee) presiding.
    Present: Representatives Gallegly, Smith, King, Lofgren, 
Jackson Lee, and Waters.
    Staff Present: (Majority) Dimple Shah, Counsel; Marian 
White, Clerk; and (Minority) Hunter Hammill, USCIS Detailee.
    Mr. Gallegly. Call to order the Subcommittee on Immigration 
Policy and Enforcement to order. Over the past year, the Obama 
administration has taken several steps to grant relief to 
illegal immigrants and other removable aliens without approval 
of Congress. These actions strain the constitutional separation 
of powers and will defy the will of the American people. They 
are part of the Administration's unrelenting effort to grant 
amnesty to illegal immigrants.
    Unfortunately, the Administration is imperiling the Secure 
Communities program as part of this effort. Secure Communities 
is a powerful law enforcement tool that allows U.S. Immigration 
and Customs Enforcement to detain removable aliens arrested by 
local law enforcement agencies.
    Secure Communities grew out of a local law enforcement 
program that we established in the mid-1990's. In the 1996 
illegal immigration reform bill, I included a provision that 
established a pilot program in Anaheim and Ventura County, 
California, that authorized local law enforcement officials to 
screen criminals in local jails prior to being arraigned. And 
in 1997, this program was expanded to jurisdictions throughout 
the United States.
    Today this program, which is now called Secure Communities, 
is supported by local law enforcement organizations across the 
Nation, including the Major County Sheriffs Association.
    Ultimately, Secure Communities assists local law 
enforcement with the identification and remove of criminal 
aliens, making it a vital tool for protecting the safety of our 
streets and neighborhoods. Yet, amnesty groups remain 
stubbornly opposed to it and claim that Secure Communities 
results in racial profiling. However, it is perplexing how a 
computer can racially profile when everyone who comes to the 
attention of law enforcement is checked through a database.
    From the outset, the Administration has failed to enforce 
our immigration laws and has effectively placed its own 
political agenda ahead of its constitutional responsibilities 
to carry out the laws enacted by Congress. Secure Communities 
is certainly no exception. The Administration is taking what is 
otherwise a useful law enforcement tool and making changes to 
it, not to strengthen the program, but to undermine it.
    The Administration has taken several steps to satisfy the 
desires of pro-amnesty groups, including the formation of a 
task force consisting largely of amnesty supporters that is 
designed to tell the Administration how and when it should 
ignore the laws written by Congress. Never before, to my 
knowledge, has an outside group composed largely of members 
with little enforcement and operational knowledge of the 
Department of Homeland Security been permitted to provide 
advice on enforcement immigration laws.
    I, along with other Members, have urged the Administration 
to reverse the policy of granting administrative amnesty to 
illegal immigrants by misusing so-called priorities.
    The Administration needs to focus on creating jobs for 
American citizens and legal workers instead of looking for 
backdoor means to permit illegal immigrants to stay in this 
country.
    I, at this time, would yield to the gentlelady, my friend 
from California, the Ranking Member, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. The title of the 
hearing is simple, ``Is Secure Communities Keeping Our 
Communities Secure?'' And I think that is the central question 
we need to ask in this hearing on SCOM. Whether the program is 
a success depends entirely on whether it is actually making our 
communities safer and more secure.
    Some of us on the Subcommittee have opinions on this 
subject, and I am sure that DHS has opinions on the subject, 
but none of us really are experts and we really need to ask 
those we entrust with community safety and learn their views 
about whether this is working to protect and serve our 
communities.
    Now some have been arguing about enforcement numbers and 
prosecutorial discretion and so-called administrative amnesty. 
While we were doing this, law enforcement officials all over 
the country have been speaking out and asking for help. 
Sheriffs, police chiefs, prosecutors, both Democrats and 
Republicans, have been increasingly vocalizing concerns about 
SCOM as it is currently designed, saying that it actually 
threatens public safety and endangers the communities they are 
sworn to protect.
    Now SCOM was advertised to State and local law enforcement 
as a simple, voluntary, race-neutral, information sharing 
program focused on catching the most serious criminals. And as 
advertised, that program would make a great deal of sense. In a 
world of limited enforcement resources it is just common sense 
to prioritize the removal of dangerous criminals. And an 
electronic information sharing program to find and catch such 
individuals, that would be a laudable thing. That's especially 
true when the program would be implemented with the consent of, 
and coordination and consultation, with State and local law 
enforcement officials who, after all, know best how to protect 
their own communities.
    But according to a growing number of these State and local 
law enforcement officials, SCOM has failed to live up to its 
advertising in almost every respect.
    Now while SCOM was originally sold as a voluntary program, 
we all now know that's not the case and actually probably never 
was. Despite signed agreements and promises ensuring input from 
State and local authorities, and an option for opting out of 
the program if it fails to work for a given community, DHS now 
intends to move forward in a mandatory fashion without any such 
input.
    The program is also failing to live up to the promise that 
it would focus on serious criminals. According to ICE's own 
figures, over half of those identified and deported through 
SCOM either had no criminal convictions or were convicted of 
minor offenses, including driving without a license and other 
traffic offenses. It includes witnesses, bystanders, even 
victims, including even victims of domestic violence. And this 
is damaging community policing efforts. Ask any police chief or 
sheriff in the country what is his or her primary duty, and you 
will get the same answer, which is keeping our streets safe 
from serious criminals. To best accomplish that, they will 
probably also tell you they need the full trust and cooperation 
of the communities they serve. Community policing efforts are 
widely accredited for declining crime rates over the last 
decade.
    Now as SCOM is currently being run by ICE, a growing number 
of sheriffs and police chiefs believe the program is 
distracting them from their primary function, diverting their 
resources, and also damaging trust, especially in immigrant 
communities. Without trust, crimes go unreported, 
investigations go unsolved and decades of community policing 
efforts are destroyed, which could leave us all less safe. Mark 
Curran, the Republican chair of Lake County Illinois once 
supported SCOM; he no longer does, because of the fear and 
distrust the program is engendering in the communities he is 
sworn to protect.
    Expressing similar concerns are Salt Lake City police chief 
Chris Burbank, San Antonio police chief Bill McManus, Austin 
police chief Art Acevedo, former San Francisco Sheriff Michael 
Hennessey, and Boston police commissioner Ed Davis. You can't 
just dismiss their concerns by saying they don't believe in the 
rule of law. I mean, these are law enforcement officers from 
all over the country who are deeply committed to fighting crime 
and protecting the communities they serve.
    Experts are also worried, Mr. Chairman, about SCOM's 
susceptibility to racial profiling. The program was advertised 
as being immune from racial profiling because it runs 
fingerprints on anyone who is arrested and booked, regardless 
of race or nationality. But the real problem is that SCOM may 
lead to pretextual arrests by officers who know that all 
fingerprints will be checked against ICE databases. If an 
officer chooses to issue tickets to White drivers without their 
license, but arrest Latinos in the same situation, SCOM would 
not be race neutral.
    A recent report by U.C. Berkeley's Warren Institute found 
that between 2008 and January 2010, 93 percent of those 
identified through SCOM were Latino. Now some of this may have 
do with the locations where the program is operating, but 93 
percent is a staggering statistic because Latinos do not make 
up 93 percent of the removable immigrants in this country.
    Now, I know the Department is taking steps to ameliorate 
these concerns. They have this advisory council. ICE has issued 
guidelines to clarify enforcement priorities. And they are good 
steps, but I think the hearing today is probably scheduled to 
attack these small baby steps forward. I am sure we will hear 
with displeasure the recent report of the SCOM task force which 
included sheriffs and police chiefs. They had extensive field 
hearings and consultations, and the report raises very serious 
concerns about racial profiling. And it recommends that ICE 
would hold off on enforcement action on minor traffic offense 
as these offenses are most likely to be pretextual.
    I think the systematic use of prosecutorial discretion is 
absolutely necessary if the Department chooses to push forward 
with nationwide Secure Communities by 2013. We have 
dramatically increased enforcement resources over the last 
decade, but the capacity in detention centers is about 300,000, 
and we have a backlog of over 300,000 cases pending in 
immigration courts.
    What that backlog means is there are some serious criminals 
waiting, and our resources are being spent on things that are 
minor in scope. So I am hopeful that we can learn from this 
hearing. I would ask unanimous consent to put my full statement 
in the record. I look forward to hearing from the witness and I 
yield back.
    Mr. Gallegly. Without objection the full statement will be 
part of the record of the hearing.
    [The prepared statement of Ms. Lofgren follows:]
 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Ranking Member, Subcommittee 
                 on Immigration Policy and Enforcement
    The title of this hearing is simple: ``Is Secure Communities 
Keeping Our Communities Secure?'' I agree that is the central question 
we should be asking at a hearing on S-Comm. Whether the program is a 
success depends entirely on whether it is actually making our 
communities safer and more secure.
    Some of us in this Subcommittee may have opinions on this subject. 
I'm sure DHS officials have their opinions. But none of us are experts. 
If we truly want to know whether S-Comm is making communities safer, 
shouldn't we ask those who are most entrusted with community safety? 
Shouldn't we ask the law enforcement officials most responsible for 
protecting and serving those very communities?
    While some have been arguing about enforcement numbers, 
prosecutorial discretion, and so-called administrative amnesty, law 
enforcement officials all over this country have been speaking out and 
asking for help. Sheriffs, police chiefs, and prosecutors--both 
Democratic and Republican--have been increasingly vocalizing their 
concerns that S-Comm, as currently designed, actually threatens public 
safety and endangers the communities they are sworn to protect.
    S-Comm was advertised to state and local law enforcement as a 
simple, voluntary, and race-neutral information-sharing program focused 
on catching the most serious criminals. As advertised, this program 
made a good deal of sense.
    In a world of limited enforcement resources, it is just common 
sense to prioritize the removal of dangerous criminals. And an 
electronic information-sharing program to find and catch such 
individuals is laudable. This is especially so when the program is 
implemented with the consent of and in coordination with state and 
local law enforcement officials, who know best how to protect their 
communities.
    But according to a growing number of these state and local law 
enforcement officials, S-Comm has failed to live up to its advertising 
in almost every respect.
    While S-Comm was originally sold as a voluntary program, we all 
know now that is not the case and it never was. Despite signed 
agreements and promises ensuring input from state and local authorities 
and an option for opting out of the program if it failed to work for 
the community, DHS now intends to move forward in a mandatory fashion 
without any such input.
    The program is also failing to live up to the promise that it would 
focus on serious criminals. According to ICE's own figures, over half 
of those identified and deported through S-Comm either had no criminal 
convictions or were convicted of only minor offenses, including driving 
without a license and other traffic offenses. It has swept in 
witnesses, bystanders, and even victims--including even victims of 
domestic violence.
    This is damaging community policing efforts. Ask any police chief 
or sheriff in the country what his or her primary duty is and you'll 
get the same answer--keeping our streets safe from serious criminals. 
To best accomplish that, they will tell you that they need the full 
trust and cooperation of the communities they serve. Community policing 
efforts are widely credited for declining crime rates over the last 
decade.
    As S-Comm is currently being run by ICE, a growing number of 
sheriffs and police chiefs believe the program is distracting them from 
their primary functions, diverting their resources, and damaging trust 
with immigrant communities. Without this trust, crimes go unreported, 
investigations go unsolved, and decades of community policing efforts 
are destroyed--leaving us all less safe.
    Mark Curran, the Republican sheriff of Lake County, Illinois, once 
supported S-Comm. He no longer does because of the fear and distrust 
the program is engendering in the communities he is sworn to protect. 
Expressing similar concerns are Salt Lake City police chief, Chris 
Burbank; San Antonio police chief, Bill McManus; Austin police chief, 
Art Acevedo; former San Francisco sheriff, Michael Hennessy; and Boston 
Police Commissioner, Ed Davis. You cannot simply dismiss their concerns 
by saying they do not believe in the rule of law. These are head law 
enforcement officers from across the country who are deeply committed 
to fighting crime and protecting the communities they serve.
    Experts are also worried about S-Comm's susceptibility to racial 
profiling. The program was advertised as being immune from racial 
profiling because it runs fingerprints on anyone who is arrested and 
booked, regardless of race or nationality. But this ignores the real 
problem--that S-Comm may lead to pre-textual arrests by officers who 
know that all fingerprints will be checked against ICE databases. If an 
officer chooses to issue tickets to white drivers without their 
license, but arrest Latino drivers in the same situation, S-Comm can 
hardly be said to be race neutral.
    A recent report by UC-Berkeley's Warren Institute found that 
between 2008 and January 2010, a full 93% of those identified through 
S-Comm were Latino. Some of this may have to do with the locations in 
which the program was operating at that time, but 93% is still 
staggering. Latinos do not make up anywhere near 93% of the removable 
immigrants in this country.
    To DHS's credit, the Department has taken steps to ameliorate some 
of these concerns. DHS created the S-Comm Advisory Council Task Force 
to study the program and make recommendations for its improvement. And 
ICE issued updated guidance clarifying the country's enforcement 
priorities and the use of prosecutorial discretion for non-priority 
cases.
    These are good steps. But they do not fully address the problems 
just discussed. Much more clearly needs to be done to address law 
enforcement concerns.
    Yet I suspect that the Majority scheduled this hearing today 
specifically to attack these small, recent attempts to improve Secure 
Communities.
    I am sure you will hear displeasure with the recent report of the 
S-Comm Task Force, which included sheriffs and police chiefs from 
across the country. Issued after extensive field hearings and 
consultations, the report raises concerns about racial profiling and 
community policing, and it recommends that ICE withhold enforcement 
action on minor traffic offenses--those offenses most likely to be pre-
textual. The report also recommends that ICE better make use of 
prosecutorial discretion in appropriate cases.
    I am sure you will also hear continued attacks on the recent agency 
guidance concerning enforcement priorities and prosecutorial 
discretion. ICE just released additional guidance and announced pilot 
programs in Denver and Baltimore for reviewing cases pending before the 
immigration courts.
    This systemic use of prosecutorial discretion is absolutely 
necessary if DHS chooses to push forward with nationwide Secure 
Communities by 2013.
    While Congress dramatically increased enforcement resources over 
the last decade, it did not provide commensurate resources to DOJ's 
immigration courts. This has resulted in detention centers filled 
beyond capacity and a backlog of over 300,000 cases pending in our 
immigration courts.
    This backlog means some serious criminals wait while resources are 
spent on children, spouses of military families, and farmworkers. This 
makes no sense and will only get worse as a nationwide Secure 
Communities program potentially pours in hundreds of thousands of new 
cases into our already overburdened system.
    Given limited resources, DHS made the sensible decision to put 
those who would do us harm--terrorists and serious criminals--first in 
line for removal. This is simply sound law-enforcement. It is just 
common sense.
    Yet the Majority, at numerous prior hearings, has decried the use 
of prosecutorial discretion--widely accepted everywhere else in the law 
enforcement world--as ``administrative amnesty.'' This charge is 
premised on the ridiculous allegation that this Administration is 
failing to enforce our nation's broken immigration laws.
    Rather than make political attacks, we should actually discuss how 
to fix S-Comm to address concerns from dedicated law enforcement 
officials across the country. Failure to do so will lead a system 
overwhelmed past the breaking point--and to communities that are 
anything but secure.
                               __________

    Mr. Gallegly. With that, I would yield the gentleman the 
Chairman of the full Committee Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. Immigration and Custom 
Enforcement's primary mission is to promote public safety 
through criminal and civil enforcement of Federal immigration 
laws. As part of ICE's mission, the agency attempts to identify 
and remove illegal immigrants. Through Secure Communities, ICE 
uses existing information sharing between the Department of 
Homeland Security and the U.S. Department of Justice to quickly 
and accurately identify immigrants who are arrested for a crime 
and booked into local law enforcement custody.
    Under this program, the fingerprints of everyone arrested 
and booked are checked against FBI criminal history records and 
DHS immigration records to determine if immigration enforcement 
is required.
    Secure Communities is an important and effective 
immigration law enforcement program. This program simply makes 
sense. Who wouldn't want to deport a criminal immigrant?
    But advocates for amnesty have raised opposition for one 
reason: Security Communities works.
    Unfortunately, Secure Communities has fallen prey to the 
White House's demands that DHS bypass Congress and use 
discretionary Executive Branch authorities to grant back-door 
amnesty. While the program will be operational in all 
jurisdictions by 2013, DHS has announced changes to Secure 
Communities that could potentially allow millions of illegal 
and criminal immigrants to avoid deportation and work in the 
U.S., taking jobs away from Americans.
    On August 22 I sent DHS a written request for information 
about removable illegal and criminal immigrants brought to the 
attention of ICE through Secure Communities on whom ICE elected 
not to take action. The Committee needs to determine which of 
these immigrants went on to commit additional crimes.
    To date, I have not received the information requested 
which forced the issuance of a subpoena. Apparently, the 
Administration doesn't want the American public to know the 
facts.
    The Obama administration's refusal to fully enforce 
immigration laws allows illegal immigrants to work legally in 
the United States, forcing millions of unemployed Americans to 
compete with them for scarce jobs.
    The Obama administration remains on the wrong side of the 
American people when it comes to illegal immigration. According 
a recent poll, two-thirds of the American people want to see 
our immigration laws enforced.
    The Administration is putting illegal immigrants ahead of 
the interest of American taxpayers and unemployed Americans. 
The Administration should enforce all the laws on the books, 
not just the ones it likes.
    Thank you, Mr. Chairman, I will yield back.
    Mr. Gallegly. I thank the gentleman. We have a really 
distinguished group of witnesses on our panel today. I want to 
welcome you and say from the onset that your written statement 
will be made a part of the record of the hearing in its 
entirety. I would ask all of you to try to summarize your 
verbal presentation in 5 minutes because of the time period we 
have here today, and we would like to give everyone an 
opportunity to interact with questions.
    With that, I introduce our witnesses the first is Mr. Gary 
Mead. Mr. Mead is executive associate director for Enforcement 
and Removal Operations, U.S. Immigration Customs Enforcement, 
at the Department of Homeland Security. The enforcement removal 
operation promotes public and safety and national security by 
removing national security threats, high risk criminal aliens 
and illegal aliens fugitives.
    Prior to joining ICE in 2006, Mr. Mead spent his entire 
Federal law enforcement career with the U.S. Marshal Service. 
Mr. Mead holds a Master's degree and has received two senior 
executive service presidential rank awards.
    Our second witness is Ms. Julie Myers Wood. Ms. Wood is 
president of the ICS Consulting and Immigration and Custom 
Solutions, LLC. Prior to founding these companies, Ms. Wood's 
served as Assistant Secretary of Homeland Security for the U.S. 
Immigration Customs Enforcement for nearly 3 years. Under her 
leadership, the agency sent new enforcement records with 
respect to immigration enforcement, export enforcement and 
intellectual property rights. Ms. Wood earned her bachelors 
degree at Baylor University, and J.D. from Cornell Law School.
    Our third witness is Sheriff Sam Page. Sheriff Page is an 
elected official and the chief law enforcement officer of 
Rockingham County, North Carolina. Sheriff Page serves as the 
2011, 2012 chairman of the North Carolina Sheriff's Association 
and formally served as president of the North Carolina 
Sheriff's Association in 2010. In addition, he has served the 
National Sheriff's Association Border and Immigration Committee 
since 2010. Following his high school graduation, Sheriff Page 
served the United States Air Force, from 1975 to 1980, he is 
also a graduate of the National Security Institute.
    Our fourth witness, Mr. Arturo Venegas, is the former chief 
of police for the City of Sacramento, California. He began his 
law enforcement career in 1969 with the Fresno Police 
Department and served in various ranks. After graduating high 
school, he entered the military and served in the 101st 
airborne division in the U.S. in Vietnam. Thank you for your 
service.
    Mr. Venegas has a bachelor's degree from the University of 
San Francisco, a Master's degree from California State 
University, Polytechnic in Pomona and also a graduate of other 
California posts accredited studies.
    So with that, we will start where the Mr. Mead, welcome.

     TESTIMONY OF GARY MEAD, EXECUTIVE ASSOCIATE DIRECTOR, 
   ENFORCEMENT AND REMOVAL OPERATIONS, U.S. IMMIGRATION AND 
   CUSTOMS ENFORCEMENT, UNITED STATES DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Mead. Thank you, Mr. Chairman. Chairman Gallegly, 
Ranking Member Lofgren and distinguished Members of the 
Subcommittee, on behalf the Secretary Napolitano and Director 
Morton, thank you for the opportunity to discuss Secure 
Communities. Secure Communities is smart, effective immigration 
enforcement, it provides real-time leads to the ICE criminal 
alien program, greatly reducing the likelihood that criminal 
aliens will be released from State and local custody back into 
the community. Secure Communities is now active in more than 
1,700 jurisdictions in 44 States with full deployment on track 
for 2013.
    Since its inception, more than 109,000 convicted criminal 
aliens have been removed as a result of Secure Communities. 
However, to fully understand Secure Communities, it needs to be 
placed within the context of the ICE immigration enforcement 
and priorities. Simply put, it is ICE's responsibility to 
identify and remove from the country those persons unlawfully 
present. Like any law enforcement agency, ICE has priorities to 
focus the use of its resources. The ICE priorities are clear 
and straightforward: They include criminal aliens and those who 
pose a threat to our communities, immigration fugitives, repeat 
immigration violators and recent border crossers.
    However it is important to note that does not mean cases 
outside the priorities will be routinely ignored. In fiscal 
year 2011, ICE removed a record setting 397,000 unlawfully 
present aliens, 90 percent of which fell into these priorities. 
Secure Communities is a valuable tool in meeting these 
priorities. 95 percent of the more than 149,000 persons removed 
as a result of Secure Communities fell into one these 4 
priority categories.
    Last fiscal year alone, more than 58,000 of the record-
setting 216,000 criminal alien removals came from Secure 
Communities leads. While Secure Communities is smart, effective 
immigration enforcement, the ICE communications surrounding 
Secure Communities has been anything but smart or effective.
    In addition, some early deployment decisions have lead to 
unintended, and at times, difficult-to-explain consequences. 
Accordingly, I would like to take a minute to explain what 
Secure Communities is and is not. It is the result of a fiscal 
year 2008 congressional directive that ICE improved and 
modernized its efforts to identify and remove criminal aliens. 
It utilizes a 2002 Federal statute requiring the sharing of 
information between Federal agencies.
    It compares electronic criminal justice fingerprint data in 
the possession of the FBI with fingerprint data in the 
possession of DHS. When matches occur, they are reviewed on a 
case-by-case basis by trained ICE officers who determine what, 
if any, immigration action is appropriate. It is very important 
to note that Secure Communities does not authorize local law 
enforcement officers to enforce immigration laws or divert them 
or their resources from their local law enforcement work. It 
does not target victims of or witnesses to crime, particularly 
in domestic violence cases. It does not promote racial 
profiling. MOUs with the States were not required for 
deployment. Other than to stop sending fingerprints of those 
individuals arrested and booked on local crimes to the FBI, it 
is not possible for States or local jurisdictions to opt out of 
Secure Communities.
    While the fundamentals of Secure Communities have remained 
sound and unchanged since its inception, we have recognized a 
number of areas for improvement, many of which were included in 
the recent Secure Communities task force report. Some of the 
more significant changes include the following: Creation of new 
public ICE Web site, clearly explaining Secure Communities; the 
issuance of updated guidance on prosecutorial discretion and 
protections for victims of and witnesses to crime.
    The DHS office of civil rights and civil liberties and ICE 
have begun providing public and law enforcement outreach 
materials, including the first in the series of DVDs; 
implementation of a joint CRCL complaint process for those who 
feel Secure Communities is in a particular jurisdiction is 
being misused; the creation of a CRCL statistical early warning 
tool, to help analyze and identify any potential of racial 
profiling and jurisdictions where Secure Communities has been 
activated; a soon-to-be released revised version of the ICE 
detainer form which will inform local law enforcement to apply 
the detainer only upon conviction for certain low level 
misdemeanors.
    We are also working to identify low-level misdemeanors that 
would typically be outside ICE priorities and reviewing whether 
it would be possible to provide a post conviction model to 
them.
    In conclusion, I would like to restate that Secure 
Communities is smart, effective immigration enforcement and a 
valuable tool in achieving our overall priorities. Thank you 
again for the opportunity to appear here today, and I would be 
happy to answer any questions you may have.
    Mr. Gallegly. Thank you very much, Mr. Mead.
    [The prepared statement of Mr. Mead follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Ms. Wood.

           TESTIMONY OF JULIE MYERS WOOD, PRESIDENT, 
                      ICS CONSULTING, LLC

    Ms. Wood. Thank you, Chairman Gallegly, Ranking Member 
Lofgren, distinguished Members of the Subcommittee. I 
appreciate the opportunity to testify before you today about 
the importance of Secure Communities and the ongoing challenges 
faced by the agency in implementing the program. My name is 
Julie Myers Wood, and I am the former assistant secretary at 
ICE.
    As Gary Mead indicated, ICE has made some significant 
strides in implementing Secure Communities and ensuring that 
serious criminal aliens are being identified and deported. When 
considering the remaining challenges the agency has, it is 
important to remember how far the agency has come. When I first 
arrived at ICE, we did not have a good handle on the population 
of criminal aliens in jails and correctional institutions, 
despite our obligation to monitor the criminal alien population 
and reduce releases into society. In fact, we really a 
patchwork approach. In some areas, ICE had full coverage and 
every criminalized alien that was there was identified and 
processed. In other areas, ICE had no presence at all, this was 
simply unacceptable.
    We also did not make full use of technology to ensure that 
we were processing criminal aliens efficiently. It was this 
frustration, the frustration that ICE was failing to identify 
criminal aliens and that ICE was often inefficient in 
processing and apprehending criminal aliens that it did 
identify that lead to the creation of the Secure Communities 
program.
    As Gary noted, Congress played a critical role in urging 
the agency to improve its efforts in this regard. A key goal of 
Secure Communities was to create uniformity and to ensure that 
all individuals who are arrested and convicted by local and 
statement law enforcement would not simply blend back into 
society without an encounter by ICE. It was to take away the 
randomness of local programs that allowed releases to occur. 
Making the program voluntary or allowing localities to opt in 
would undermine a central goal of the program that Congress 
required.
    The agency has made significant strides in implementing 
Secure Communities, but some challenges do remain. In 
particular, ICE has to continue to assess how to best utilize 
its limited resources. Some of this can be done by 
prioritization. However, it is critical for the agency to 
aggressively use tools that increase efficiency in removal 
proceedings without sacrificing fairness. For example, the 
agency should increase use of the programs that places 
individuals in immigration proceedings while they are serving 
time in Federal or State institutions, known as the 
institutional removal program. The agency also should increase 
the use of voluntary stipulated removals and, where 
appropriate, the use of the Rapid REPAT program, a program that 
provides for conditional early release of qualifying non-
violent criminal aliens on the condition that they voluntarily 
agree to their removal, they waive any appeal rights, and agree 
to be deported. This saves money both on the State and local 
side, and saves money on the Federal side while encouraging 
aliens to abide by court orders.
    While seeking to increase efficiency with the resources 
currently allocated to the program, ICE must ensure it doesn't 
reduce transparency or any fairness in the process. In this 
area, there is some room for improvement by the government. In 
particular, there could be enhanced education about how to 
avoid racial profiling, in addition to the education that is 
currently in place. Routine training could be implemented at 
the time the Secure Communities is started in a particular 
community. The solution to potential problems, however, must be 
education, and it cannot simply be the fly spec every 
underlying crime and arrest that subjects an immigrant to the 
Secure Communities process.
    In summary, the agency plans to insure that all facilities 
are covered through Secure Communities by 2013 will go a long 
way in keeping our communities secure. But in order to ensure 
long-term success of the program, ICE must continue to address 
resource efficiency and fairness issues and must have the 
support of Congress in this regard. I thank you very much, and 
I look forward to any questions that you have.
    Mr. Gallegly. Thank you, Ms. Wood.
    [The prepared statement of Ms. Wood follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Gallegly. Sheriff Page.

TESTIMONY OF SAM PAGE, SHERIFF, CHIEF LAW ENFORCEMENT OFFICER, 
                     ROCKINGHAM COUNTY, NC

    Sheriff Page. To the Chairman of the House Judiciary 
Committee and to Members, I give you greetings from Rockingham 
County, North Carolina. I would like to thank you all for 
allowing me to come before you and to give testimony and answer 
your questions.
    I have talked to a lot of sheriffs over the past couple of 
years across the country and in my State of North Carolina. 
Sheriffs see an increase in criminal illegal alien activity 
home based in our communities. Secure Communities--the question 
was is Secure Communities keeping or communities safe? I 
believe it does. And what I think is important about Secure 
Communities is that it provides additional access to 
information and the ability to communicate that information to 
other law enforcement agencies, including ICE, who we partnered 
with.
    Prior to 2009, we did not have all the access that we have 
now. As of March 2011, all counties in North Carolina now have 
the Secure Communities program, and we all participate in this 
program because we see the importance. I am not going repeat 
the main mission, because Mr. Mead has already addressed that, 
but Secure Communities is very simple: A person first has to 
get arrested, he ends up in a local jail facility. The 
information is provided to us through interviews that the 
person was not native born, we run him through the process of 
the FBI and also through the immigration's fingerprint 
database. We wait on hit confirmations or information that 
comes back and we conduct interviews working with our ICE 
agents. ICE makes the determination as has already been stated, 
whether to detain or not. If the person has a bond and detainer 
is not issued and the person posts bond, we release that 
person. If a detainer is issued and he posts bond, the person 
is released to ICE, they have 48 hours to pick them up.
    Secure Communities was designed to take serious criminal 
illegal aliens off the streets of our Nation. It was designed 
to help identify criminal offenders in the U.S., and that 
information assist in the deportation process. It gives local 
police, sheriffs and jails a great law enforcement tool to 
better identify those persons that have been arrested and are 
in custody.
    I run a jail, the most important thing I can do as a 
sheriff in North Carolina and a sheriff in America is to be 
able to identify who is coming in my jail and who is being 
released back into the community. I relate to my citizens and 
sheriffs, and I would think anyone else as a sheriff or law 
enforcement official would believe the same thing.
    Since October 2010 to the present, successes using Secure 
Communities, we have identified 58 criminal illegal aliens, of 
those, ICE has issued 49 detainers; 36 of the 58 persons 
arrested have been picked up by ICE; 25 of the 58 were charged 
with DWI offenses, driving while impaired. Ten of the 58 have 
reoffended and returned back to my community, by their own 
arrest in my jurisdiction. As of today, none of the 10 have 
been deported. Four of the 58 were charged with assault upon a 
female, domestic related. One of the 58 was charged with 
assault with deadly weapon, inflicting serious injury, 
attempted murder, domestic.
    I appreciate having Secure Communities in North Carolina 
and having access to the immigration automatic fingerprint 
system to improve our print identification process. I know this 
law enforcement office has more information. The quicker we get 
information, the more information we have, we have a better 
chance of solving crimes in our communities.
    The last fact about ICE is, a question in which someone 
asked, how much does it cost? Well, first off, it didn't cost 
us anything. Second of all, it is very limiting amount of 
training, so I don't lose officers. And also, this program was 
asked for by all the sheriffs in North Carolina because we 
believe in it. And again, our primary response when we arrest 
people and they bring them to our jail facility, is to try to 
identify that person is to the best of our ability before that 
person is released because that person may be going back out to 
our communities to reoffend, we want to know what the person 
is. Ladies and gentlemen I thank you and honor any questions 
you may have.
    [The prepared statement of Sheriff Page follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                               __________
    Mr. Gallegly. Thank you very much, Sheriff.
    Mr. Venegas.

    TESTIMONY OF ARTURO VENEGAS, JR., PROJECT DIRECTOR, LAW 
               ENFORCEMENT ENGAGEMENT INITIATIVE

    Mr. Venegas. Chairman Gallegly, Ranking Member Lofgren and 
distinguished Members of the Subcommittee, thank you for the 
invitation to review the Immigration and Customs Enforcement 
Secured Community program with you. My name is Arturo Venegas. 
I am the retired chief of police for the city of Sacramento. I 
also believe I am probably the only American citizen veteran 
that is also an immigrant.
    I now direct the law enforcement engagement initiative, a 
national effort to engage law enforcement executives across the 
country in a sensible dialogue over immigration policies that 
promote public safety and community cohesion.
    This past summer, I served on the DHS task force on Secure 
Communities until the very end of the process. I concluded that 
the task force did not go far enough in recommending specific 
enforceable changes to repair the damage that the program has 
had on the relationship between immigrants and local police.
    DHS initially introduced the Secure Communities program as 
only targeting those with serious criminal convictions. As a 
result, many of my law enforcement colleagues initially saw it 
as positive alternative to the 287(g) program assuming that the 
use of Federal database wouldn't allow for racial profiling. 
However in 2010, advocates gain access to DHS statistics on who 
exactly was being deported through the program, many of my 
colleagues views began to show. The data showed that 60 percent 
of the people deported through the program committed either low 
level offenses, like traffic violation, or no offense at all. 
These statistics led not only to more opposition from law 
enforcement leaders, but from governors.
    In May and June, the governors of Illinois, New York and 
Massachusetts all formally requested removal of their States 
from the program, citing, number 1, the deportation of non 
criminals and its negative affect on community policing. And 
number 2, the fact that ICE misled law enforcement by leading 
them to believe that serious criminals were being deported.
    In June, DHS created a task force to review Secure 
Communities, and a letter to us, my colleagues from the 
National Latino Peace Officers Association made three very 
specific recommendations for changes to Secure Communities: 
Number 1, tailor the program to focus only on individuals 
convicted of serious crimes; number 2, clarify the limits of 
police authority to enforce civil immigration laws; and number 
3, create accountability mechanisms so these changes aren't 
merely voluntary.
    The recommendations contained in the task force report fell 
short on these principles, and I chose not to sign on. In 
Secure Communities in its current form, and even if the 
recommendation of the task force are implemented, individuals 
simply arrested for minor violations, including traffic 
offenses, are still being put through the system. Immigrants 
continue to fear that contact with the police could lead to 
deportation. Crimes go unreported, leaving criminals free to 
prey on others. Civil immigration enforcement continues to 
trump crime control in our communities.
    What is more, immigrants charged with more serious, 
oftentimes violent, or even minor offenses, are never 
convicted. We will find no protection whatsoever in the current 
policy or the task force recommendations. It seems that we are 
agreeing to turn the long-standing principle of innocent until 
proven guilty on its head for certain groups of people. If you 
are an immigrant and you are charged with a serious offense or 
even a minor offense you are guilty until proven innocent and 
you will be referred for deportation.
    As an immigrant myself, and as an American citizen, I 
cannot support that different standard. While I felt the 
recommendations and the task force fell short, I did agree with 
some of its premises, it elaborated on the need to use agency 
resources more effectively through the long-standing practice 
of prosecutorial discretion and express their support to DHS 
and their recent announcement of this new policy. The fact that 
this policy is now being politicized make no sense to me. 
Prosecutorial discretion is a fundamental tool of all law 
enforcement agencies. Police and prosecutors constantly use 
their discretion to decide which cases to investigate, which to 
prosecute and which to dismiss. They consider the factors like 
seriousness of the criminal violation, any record of previous 
violations, availability of investigative and prosecutorial 
resources, strength of the evidence and the violations impact 
on the community safety.
    But as important as prosecutorial discretion is, the 
Administration's new policy will not fix the problems inherent 
in secured communities. The policy is only triggered after an 
individual is put into the system, but every time someone is 
stopped and arrested for a minor violation and detained, 
because of their immigration status, the immigrant community 
learns that police are to be feared. Immigrants need to know 
that local police is there to help them, not deport them. Thank 
you, again, for the opportunity to address you on this very 
important topic.
    Mr. Gallegly. Thank you very much, Mr. Venegas.
    [The prepared statement of Mr. Venegas follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Mr. Mead, ICE has identified over 300,000 
criminal immigrants through the Secure Communities whom it has 
decided to release back on to our streets. Do you have any 
concern that some of these released aliens will go on to commit 
additional crimes? And how would you answer a victim of one of 
these crimes who said you had it within your power to prevent 
their attack, but opted not to do that?
    Mr. Mead. Mr. Chairman, I am not familiar with the figure 
that we released 300,000 criminal aliens back on to the street. 
But I can tell you that we have removed more criminal aliens 
last year than we have removed ever before. We are working at 
almost maximum capacity in terms of total removals. And our 
number one priority in terms of immigration enforcement is the 
identification and removal of criminal aliens. It would be 
extremely rare, extremely rare for us to knowingly let a 
serious criminal offender walk loose in the community. It would 
have to be some extraordinary circumstance probably beyond our 
control to do that.
    Mr. Gallegly. You would yield that many, you say you are 
not familiar with the 300,000 number, but let's say it is only 
286,000 or 192,000 that have been deemed to be illegally in the 
United States, have committed some crime, maybe something as 
simple as a third- or fourth-time drunk driving arrest, spousal 
abuse, something like that. Why are they released back into the 
public in a so-called catch-and-release situation?
    Mr. Mead. Well, again I am not familiar with any catch-and-
release situation that may exist. Whether it is Secure 
Communities or the criminal alien program, we are doing 
everything possible to identify----
    Mr. Gallegly. Okay, but----
    Mr. Mead [continuing]. Detain, and remove criminal aliens.
    Mr. Gallegly. So you are not familiar with any individual, 
criminal alien that has been released back into the community 
prior to a deport hearing?
    Mr. Mead. As I said, there certainly could be circumstances 
like that, you could have a legal permanent resident who has 
been charged with a crime, not convicted of that crime----
    Mr. Gallegly. But a legal----
    Mr. Mead [continuing]. Not subject to removal.
    Mr. Gallegly. With all due respect, a legal, a person who 
has legal status is not an illegal immigrant. I am talking 
about people that are illegally in the country that have been 
identified through this program, the IDENT program, Secured 
Communities, however you want to refer to it, that have been 
turned over to your custody within, I believe as the Sheriff 
said, 48 hours or the time that you are notified. And you are 
not aware of any that have just been released back into 
community? I am not talking about legal residents, I am talking 
about illegal aliens. You know of no case where that has 
happened? My numbers show at least 300,000, but let's say--you 
can go on record as saying you don't know of any policy that 
would allow this to happen for an illegal; is that correct?
    Mr. Mead. No, what I am saying is I wasn't familiar with 
your number. I said it is not our policy to release back into 
the community dangerous criminal aliens.
    Mr. Gallegly. How do you determine whether they are 
dangerous? Let's say hypothetically, a second drunk driving 
arrest, would that be considered dangerous?
    Mr. Mead. A first drunk driving arrest would be considered 
dangerous. Just looking at Secure Communities statistics since 
its inception, ICE removed over 16,000 DUIs last year, we 
removed 35,000 DUI cases in the United States so a first case 
is very serious to us.
    Mr. Gallegly. Based on that, it would be safe to say that 
it is your understanding that someone direct arrested for a 
drunk driving arrest, driving under the influence and then 
turned over into your custody pending a hearing would not be 
released?
    Mr. Mead. It is possible they could be granted bond----
    Mr. Gallegly. Bond, would that mean OR?
    Mr. Mead. No, it would be bond, a cash bond, it could be 
they are put on an alternative to detention.
    Mr. Gallegly. I appreciate your answer.
    Let me go quickly to the sheriff. Sheriff, you mentioned in 
your testimony that there is relatively no expense to the 
sheriff's department for this program, and added expense to the 
local jurisdiction; is that correct?
    Sheriff Page. Yes, sir. I just want to let you know----
    Mr. Gallegly. Do you find that using Secure Communities is 
difficult or onerous on the part of your deputies?
    Sheriff Page. No, sir I have a few staff members that are 
trying to do the data check.
    Mr. Gallegly. So it hasn't put an added burden on your 
ability to do day-to-day law enforcement? In fact, you would 
say it is a benefit?
    Sheriff Page. No, sir, I think it has actually complemented 
our work to be able to better identify criminally-charged 
illegal aliens in our jail.
    Mr. Gallegly. Thank you very much, Sheriff. The gentlelady 
from California.
    Ms. Lofgren. Before asking my questions, I would like to 
ask unanimous consent to enter some items into the record; a 
November 17 letter from 32 Members of Congress to the President 
calling for an end of Secure Communities, a November 17 letter 
from the members of the Secure Communities task force 
expressing support for prosecutorial discretion; a letter from 
the New York State Senator Gustavo Rivera; a series of letters 
and statements prepared for today's hearing by over 250 
organizations, including 44 organizations serving victims of 
domestic violence; 50 faith-based organizations and leaders; 
over 80 civil rights, human rights and immigrant advocacy 
groups; over 75 LBGT organizations; and a sign-on letter by 43 
national, State and local organizations working with survivors 
of domestic violence and human trafficking.
    Mr. Gallegly. Without objection.
    [The information referred to is included in the Appendix.]
    Mr. Gallegly. Mr. Smith.
    Mr. Smith. Thank you.
    Ms. Lofgren. I don't get to ask my questions?
    Mr. Gallegly. Oh, oh.
    Ms. Lofgren. That was a unanimous consent request to put it 
in the record.
    Mr. Gallegly. I stand corrected. With all due respect, I 
will yield now to the gentlelady for her 5 minutes.
    Ms. Lofgren. I thank you very much.
    Mr. Gallegly. You can't blame me for trying.
    Ms. Lofgren. I would blame myself for letting you succeed. 
I want to thank all of the witnesses for being here, and 
especially Mr. Venegas, you not only have a background in law 
enforcement, but you served on this task force. And sometimes I 
think it is important before we ask questions to establish what 
we do agree on. And I think everybody who I have talked to who 
has concerns about this program doesn't have a concern about 
having violent, dangerous criminals removed.
    So actually, there is more commonality here than we might 
expect. Where we get into trouble is when it is somebody who 
hasn't committed an offense, or they are pulled over for a 
faulty taillight and the impact that has on policing generally.
    I am wondering, one of the comments, Sheriff Mark Curran 
who said he once supported the Secure Communities, this is his 
quote, he said ``Fear is running through communities right now, 
the squad car rounds the corner, and you will see people scram, 
it is not because they are engaged in criminal activity 
necessarily, it is because they have this perception that they 
are illegal or they know somebody who might be undocumented, 
and they don't want to have anything to do with law 
enforcement,'' and that this has created problems for them in 
terms of getting people to call 911 or being willing to be 
witnesses, or if you are a victim of domestic violence, to call 
for help. What would be necessary? This is not only what we are 
doing, but the perception of what we are doing. What do you 
think would be necessary to get this program back on the right 
track?
    Mr. Venegas. Thank you, Congresswoman. Your first point, 
and I think it is an absolutely important one that needs to be 
said again. And I have been fortunate to literally have 
traveled now all four corners of our great country. I have not 
been in a single immigrant community or any community at all 
where they are saying, hey, it is okay to have a burglar or 
robber or rapist living next to me. Even the immigrant 
communities are saying get those people out of here, that's it. 
And that is the way the program was initially sold. I think the 
good sheriff from Illinois was talking about, and with all due 
respect to my colleagues, they are in a real pickle. But the 
fact of the matter is, is that when you activate a county, as 
an example, when you activate, when they did activate Los 
Angeles County, nobody asked the 50 or 60 other law enforcement 
agencies that booked into the jail whether they wanted to 
participate in Secure Communities or not, they got activated de 
facto.
    And the other part that is very important, I think, is that 
a lot of these communities, those chiefs had been working on 
community policing and recognizing that relationships are 
absolutely essential, not only for public safety and the 
neighborhoods and community, but for the country. The reality 
is, is that, you know, as a Nation we grew our own homegrown 
idiots, and the information that is very important to us and 
good public safety and national security often comes from the 
local officers and their relationships that they have with 
those communities.
    Whenever you start impacting the trust between the law 
enforcement agency and the communities they served at the 
neighborhood and that level, you start impacting good policing 
for the entire community and put the Nation at risk in national 
security. And I think that's what the sheriff was talking 
about. I don't think that is just in Illinois, I think that is 
true in all of the communities that really are saying, hey, 
what are we doing? If this was done as it was initially 
intended with the serious felons, nobody would be have any 
problems at all.
    Ms. Lofgren. Mr. Mead, let me ask you a question, because 
in California, there is a group called The Partnership to End 
Domestic Violence. It is a statewide coalition of domestic 
violence shelters and service providers. And they have 
contacted me and this is what they have said: ``Many of the 
immigrant domestic violence and sexual assault survivors we now 
see are too afraid to report the crimes they have suffered to 
law enforcement, and many others are too afraid to even seek 
services.'' They have said despite the Administration's efforts 
to ameliorate this program through an ICE memorandum on 
prosecutorial discretion, it is not clear how effectively that 
goal is being implemented, and the fears that are out there 
have impacted accessing the judicial system that this is a 
growing problem.
    So here is the question I have for you: Congress has, on a 
bipartisan basis, decided that if you are a victim of domestic 
violence we want you to complain. As a matter of fact, we have 
a special visa, so if you are a victim of domestic violence you 
can have access to that because we think it is better to do 
that than to have dead victims. And yet, this policy apparently 
is having an adverse impact on that national goal.
    What can we do? What is the agency prepared to do to make 
sure that many domestic violence victims, or victims of human 
trafficking are assured that they can go ahead and call 911 and 
not end up in a deportation proceeding?
    Mr. Mead. First of all, we agree completely that victims of 
domestic violence should not be deterred in any way from coming 
forward and----
    Ms. Lofgren. Unfortunately, several of them have been 
deported for doing that.
    Mr. Mead. I would say, an immediate response to that, we 
have not found a single case where a victim of domestic 
violence has been removed.
    Ms. Lofgren. I have cases, I will provide them to you.
    Mr. Mead. And we would be happy to get that information 
from you so we can run it down, because we have not been able 
to find anyone but going back to your original question.
    Ms. Lofgren. Here is the point, it has been reported to me 
by law enforcement and it has been in the newspaper, so we can 
do that off camera. The issue is if I call 911, my kid is going 
to get deported, therefore I better risk being beaten up or 
trafficked in a sexual manner. How do we overcome that if what 
you are saying----
    Mr. Mead. A couple of things have already started, one 
Director Morton issued, and it is on our Web site, his policy 
on victims of crime, and particularly victims of domestic 
violence stating clearly it is not our policy to use the 
immigration laws to adversely affect those people and deter 
them from reporting the crimes.
    We have been getting information out to local law 
enforcement about the new visas that you are talking about and 
other protections we can afford victims of domestic violence 
using prosecutorial discretion. We have been in California 
doing public roundtables on this, and whenever we have offered 
to come out again and meet with any community group that would 
be interested in hearing more about our program and policies 
because it is not our policy to use immigration law to remove 
victims of domestic violence.
    Ms. Lofgren. Let me just ask that----
    Mr. Gallegly. The time of the gentlelady--just so you know, 
the lights are about 4 minutes behind now.
    Ms. Lofgren. Then I will ask unanimous consent for 30 
additional seconds.
    Mr. Gallegly. Without objection, I will yield the 
gentlelady.
    Ms. Lofgren. To say to Mr. Mead, I certainly do not 
challenge your sincerity, but this was just received, this is 
the reputable group in California and it is not working. So we 
need to do something more if we are actually going to get the 
victims of crime to do what we hope they can do which is to be 
safe. And I thank the Chairman for the additional time.
    Mr. Gallegly. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. Mr. Mead, thank you for 
being here today. I understand you are recovering from the flu, 
so thank you for making an effort to testify.
    What information today does ICE compile on those 
individuals who have almost 300,000 individuals who have been 
released into our communities that the Administration has 
refused to detain.
    Mr. Mead. Well, Mr. Chairman, we have a lot of information 
on those people that we have taken action on, including those 
that we have released on bond or orders of supervision. We can 
tell you where they were arrested, why they were arrested, and 
what form of----
    Mr. Smith. Does ICE have information in hand that would 
enable those of us who are interested to determine whether the 
individuals released have committed additional crimes? I am not 
talking about information you might get from the FBI, but do 
you have all of the information in hand that the FBI would need 
to determine whether they have committed additional crimes.
    Mr. Mead. I am not sure what information the FBI would 
need. We have the sort of information that you are talking 
about. There is a group of people, however, where we have had 
some contact with them, but not taken an action where we don't 
have as complete information.
    Mr. Smith. What percentage of the whole would that be?
    Mr. Mead. If we are talking about the universe of IDENT 
matches that came out of Secure Communities it could be, and 
this is just a rough guess, 25, 30 percent, but I can't----
    Mr. Smith. Say approximately three-quarters of the 
individuals who have been released, you do have that adequate 
information?
    Mr. Mead. We have the information that I mentioned.
    Mr. Smith. As you probably know, I was once told by the 
staff at ICE what you just told me that they had the 
information, they were going to give it to us in the next day 
or 2, and suddenly, ICE decided not to give us that 
information. Sooner or later we will get it, that is why we had 
to issue the subpoena.
    Do you know who would have made the decision, or changed 
their mind about not giving us that information?
    Mr. Mead. I am not aware that a decision has been made not 
to give you the information.
    Mr. Smith. It is pretty obvious that we haven't received 
it, so somebody made that decision.
    Mr. Mead. We are working with two issues with the 
Department: One is how to provide information that isn't under 
the control of the FBI, and we are in dialogue with the FBI on 
that; and how do we drill down into that group of cases where 
we don't have good information.
    Mr. Smith. On the cases that you do, the 75 percent, are 
you confident I am going to get that information in the near 
future?
    Mr. Mead. I am confident that we will supply the 
information that you have requested.
    Mr. Smith. Okay, that is good news and I welcome that, 
thank you very much. Thank you, Mr. Chairman.
    Mr. Gallegly. Thank you Mr. Smith. Mr. King.--- Oh, I am 
sorry. Ms. Waters came in.
    The gentlelady from California.
    Ms. Waters. Thank you very much, Mr. Chairman. I did not 
have time to review the U.S. Immigration and Customs 
Enforcement document here, the statement of Mr. Gary Mead, but 
I just looked it over here. Mr. Mead, reading this, it sounds 
as if you were taken into consideration concerns about Secure 
Communities, and that you have done everything--done a lot of 
things to address those concerns, even to the point of training 
and videos, and on and on and on. Why then, do we still have so 
many complaints about mistakes that are made? And why do we 
have such concentration on one group of immigrant Latinos? What 
happens with people from Kosovo and other places that are here 
illegally?
    Mr. Mead. Well, Congresswoman, first of all, we take all of 
the complaints seriously, and as you said, we tried to address 
those that we felt we could address. I can tell you that of the 
1,700 jurisdictions that we have active and the 44 States, the 
number of concerns are relatively small, that notwithstanding, 
as I said, we have taken them seriously and tried to address 
them. As far as enforcing the immigration laws, we don't do 
that in any predetermined way in terms of nationality. We 
enforce the laws equally. We don't racially profile, we don't 
have targets based on countries of origin. And the end results 
are what they are.
    Ms. Waters. So what lead to the overwhelming arrest of 
Latinos, I understand that 93 percent of individuals arrested 
through the program are Latinos.
    Mr. Mead. Again, it is not as a result of racial profiling 
or country of origin. We have enforcement programs that look 
for those persons that are here unlawfully and we apply the law 
equally to them.
    Ms. Waters. Mr. Venegas, in your testimony you stated that 
you made three recommendations to DHS task force on Secure 
Communities. Can you elaborate on those recommendations and 
explain why you believe they would make the program more 
effective.
    Mr. Venegas. Absolutely. Thank you, Congresswoman. Let me--
number one was to tailor the focus of the individuals convicted 
on serious crimes. That was the original intent of the program, 
and I don't think any of the communities across the country 
would have any problems with having a murderer, a rapist, a 
serious offender, action taken. And in fact, the chiefs and 
sheriffs of this country have said before you do any 
deportation, also make sure that they are brought before our 
systems of justice and that they are held accountable, number 
one. The clarification of the police authority to enforce civil 
immigration, your question right now to Mr. Mead, I think it 
has been a problem with DHS-ICE for a long time that they 
failed to recognize that it is a but-for scenario. And but-for 
to the program, the immigration enforcement that has taken 
place at the local levels now, the numbers that you listed, and 
very correctly, would not be in place.
    The reality is that through the creation of Secure 
Communities nationwide, we have empowered individuals in our 
agencies, and I assure you, my colleagues here have fired some 
of those people, that have allowed their biases or their 
bigotry to come into play, and so they target individuals that 
normally would not be but-for to this program. It didn't exist 
with 287(g). That that they tried to create nationwide only 
ended up with 60 agencies actually participating, so now trying 
to do it nationally.
    The other part is the creation of accountability 
mechanisms. DHS refuses to accept the fact that they have an 
obligation for the enforcement that begins actually at the 
point of contact and eventually puts people into their system. 
Or to the fact that it also involves the FBI. And a recognition 
that, truly, I think it was the good intent of Congress that 
said back then agencies should talk to each other. But the 
reality is is that no accountability measures have been put in 
place since the inception of this program, not only for the 
Federal agencies and how they work in the field, but the local 
law enforcement agencies that are now active participants 
either by the fact that they want to or de facto.
    Mr. Gallegly. The time of the gentlelady is expired. Mr. 
King.
    Ms. Waters. Mr. Chairman, I have two submissions if this 
would be the proper time to do them. I ask unanimous consent 
that this letter to Governor Jerry Brown of California dated 
January 10, 2011 be included in the record. I also ask 
unanimous consent that a letter from the Coalition for Humane 
Immigrant Rights of Los Angeles, that is CHIRLA, express some 
serious concerns with the Secure Communities program such as 
lack of transparency, et cetera, also be included.
    Mr. Gallegly. Without objection.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________

    Mr. Gallegly. Mr. King.
    Mr. King. Thank you, Mr. Chairman. I thank the witnesses. I 
just first note Mr. Venegas that you announced in your 
testimony you are likely the only immigrant on the panel. And I 
wonder if you could tell us how it was you were inspired to 
come to the United States?
    Mr. Venegas. My mother actually was an American citizen and 
she was kidnapped. It is quite a long story. Do you have time 
for a book?
    Mr. King. Well, I would just like to have the short 
version.
    Mr. Venegas. A very short version. My mother actually was 
kidnapped by my grandfather and taken back to Mexico where he 
was from. Eventually he was killed and she was raised by an 
aunt. Over time, she connected with her mother who was a 
resident in Ventura County, California. And her desire was for 
us to come back to the United States and actually filed 
immigration papers in Walahra at the consulate where she found 
a very compassionate U.S. employee at the embassy. And through 
the process we were able to come to the United States and 
resided initially in Santa Maria, California.
    Mr. King. Can you just tell us what year and what visa 
then, Mr. Venegas?
    Mr. Venegas. That was 1958. I couldn't tell you the name of 
the visa or whatever.
    Mr. King. Well, thank you.
    Mr. Venegas. But I am an American citizen now, Mr. King.
    Mr. King. I congratulate you.
    Mr. Venegas. Actually, I became an American citizen after I 
served in Vietnam.
    Mr. King. I thank you. And that is the answer to my 
question. I appreciate that. I have another question for you, 
and that is the number of times I heard at least a tonal 
amendment about racial profiling. Can you point to any statute 
that prohibits racial profiling?
    Mr. Venegas. There is statutes all over that prohibit 
racial profiling, however, I will tell you this, Mr. King.
    Mr. King. Could you just point to one for this panel?
    Mr. Venegas. That prohibits racial profiling?
    Mr. King. Yes. Is there a Federal statute that prohibits 
racial profiling?
    Mr. Venegas. Yeah, the Civil Rights Act.
    Mr. King. Actually, I don't think when they wrote the Civil 
Rights Act that they even knew what racial profiling was, Mr. 
Venegas.
    Mr. Venegas. And the Fourth and Fifth Amendments in the 
United States Constitution prohibits racial profiling and 
discrimination. And our oath of office.
    Mr. King. I have the floor now. Thank you. I looked at your 
testimony, and the number I wanted to get as a clarification, 
that 60 percent of those deported committed either low level or 
no violations at all, that basis, what universe is that that 
you are speaking to? I noticed that wasn't in your written 
testimony, so could you tell us where that fact comes from, or 
that statistic?
    Mr. Venegas. Those were the facts actually that were taken 
out of the ICE's Web page. If you go into ICE they have all of 
their numbers. I have to tell you this about them, they have a 
lot of stuff that is on for their record.
    Mr. King. And a universe of that is at the United States of 
America? Is it a State, a county, how broad a universe is that?
    Mr. Venegas. No, the United States of America.
    Mr. King. Okay. Thank you. I wanted to clarify that. And I 
heard your ask on that. And I would ask you if 100 percent of 
those that were deported had committed no crime, no serious 
crime, no crime at all, and not even a misdemeanor, would that 
trouble you?
    Mr. Venegas. First of all, yes, absolutely.
    Mr. King. And why?
    Mr. Venegas. But I don't think that my point or anybody's 
point is that 100 percent of those deported have not committed 
any offense. I think--and I think I have said it for the record 
here and a number of places that the folks, and some of them 
have committed very serious offenses, number one, they should 
be held accountable at the local level or State; and then two, 
action should be taken by ICE.
    Mr. King. Thank you. And three was create accountability. 
Are you aware of how many arrests there have been of criminal 
aliens in the United States for the purpose--the number of 
arrests of criminal aliens in the United States for homicide?
    Mr. Venegas. I do not have the exact number.
    Mr. King. I would point your attention that that would be a 
study that was done and completed in March of this year 2011 by 
a GAO study that was commissioned by this panel. And that 
number is 25,064. And so I would just make this point, that 
when we deport people after the crime, there are already 
victims to crime, and I am concerned about that tone. I would 
turn my direction over to Ms. Wood, whom I welcome back.
    Mr. Venegas. May I respond to that?
    Mr. King. I thank you for your testimony. I didn't have a 
question. But Ms. Wood, you stated that you wanted to ensure 
that criminal aliens are identified and deported. Was that a 
selected term, ``criminal aliens,'' or would that also include 
those who came into the United States who were not guilty of a 
crime?
    Ms. Wood. That also were not--are you talking about lawful 
permanent residents whose crimes made them subject to removal?
    Mr. King. Well, I am really talking about those who 
overstayed their visa who would be guilty of a serious 
misdemeanor.
    Ms. Wood. No, I think I was including kind of everyone 
within that category, all individuals who would be amenable to 
removal.
    Mr. King. Thank you. I just wanted to clarify. And I 
appreciate that. I knew that precision would come from you. Mr. 
Mead, is there anything in the policy of Secure Communities 
that address the sanctuary cities that have a policy that 
refuses to cooperate?
    Mr. Mead. Not specifically. Again, it is information 
sharing as a result of fingerprint submission. So whether or 
not a city chooses to honor our detainers is really not a 
subject for Secure Communities. If the jurisdiction is 
activated in Secure Communities, their prints come to us and we 
are able to do the matching against our databases.
    Mr. King. Thank you. And then in conclusion, can you point 
to any existing statute that prohibits racial profiling?
    Mr. Mead. I can't answer that question.
    Mr. King. Could you, Ms. Wood?
    Ms. Wood. No. I am aware obviously of the DOJ guidelines 
against racial profiling. And they may refer to something.
    Mr. King. A guideline as far up the ladder as we go. 
Congress has never acted on racial profiling.
    Ms. Wood. That is right. But ICE does use those guidelines 
in training, and that is what I would point the panel to.
    Mr. King. No objection, just clarifying. And I think, 
Sheriff, you were leaning ahead. Did you have anything you 
wanted to add to that before I yield back?
    Sheriff Page. Well, you are talking about the racial 
profiling. I have got to say that we have six sheriff offices 
in the State of North Carolina that participate in 287(g), and 
all 100 in Secure Communities. But the problem that we are 
seeing with the ICE side, if I can just go to this real quick, 
is that we helped identify criminal illegal aliens using our 
local resources according to the ICE study goals and we do 
everything they ask us to do by the book, but then the Justice 
Department comes down on us with lawsuits that are unfounded, 
troublesome, and ICE doesn't really step up to help us. We are 
following the program, we are following the rules and we are 
getting hammered.
    Mr. King. We needed to hear that, Sheriff.
    Ms. Wood. And one of the things, I do want to point out 
regarding Secure Communities is that reviewing everyone 
actually reduces a potential for racial profiling. When I was 
at ICE, sometimes we would have trouble with bad actors or 
individuals in State and local law enforcement that would act 
on their own and would go ahead and call up ICE and do 
something kind of inappropriate. Secure Communities ensures 
that everyone who comes into the system, no matter your color, 
how you speak, anything else, is screened through the program. 
And so I do think that, with education, can help reduce it.
    Ms. Lofgren. Would the gentleman yield?
    Mr. Gallegly. The time of the gentleman is expired.
    Mr. King. And I yield back, Mr. Chairman. Thank you.
    Mr. Gallegly. The gentlelady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Let me thank the--and I would be happy in 
just a moment if the Chairman would indulge me as he did Mr. 
King, the gentlelady has a point. But let me thank the Ranking 
Member and the Chairman for this very important hearing. Let me 
be very clear that Congress'share of come and go, and I think 
you have seen a delineation of some on this panel who are 
championing the Secure Communities and some that may have 
reasonable and rational questions. One thing I think that none 
of us will disagree with is that we support our local law 
enforcement, Members of Congress fight for resources to come to 
the local community.
    May I just make a humorous comment, and that is, sometimes 
when we are cutting the ribbon or passing a check, the Congress 
people are the potted plants and you local guys are banging 
your chest. But that is all right. We are servants and we don't 
mind that. I enjoy, and I know my colleagues enjoy doing that. 
We want to make things work for you, but I do want to make it 
very clear that one person's championing of the sledge hammer 
approach is here today and gone tomorrow. The responsibility 
that we have is to do the right thing. And if it takes making 
the laws more clarified, then we should do that. And so I am 
going to pose my questions to Mr. Mead and Mr. Venegas.
    Mr. Venegas. Venegas.
    Ms. Jackson Lee. Venegas. Thank you so very much. I was 
going French and I should have gone another direction from 
California. But I am just teasing you. Thank you for clarifying 
that pronunciation.
    Mr. Mead, let me try to find out what kind of people are 
your field folk focusing on under the Enforcement Removal of 
Operations for the U.S. Immigration and Customs, U.S. 
Department of Homeland Security?
    Mr. Mead. Well, as I said earlier in my testimony, we focus 
on four key priorities, criminal aliens, fugitives, these are 
people who have been ordered removed from the country and have 
not departed, repeat immigration violators and recent border 
crossers. Those are our highest priorities. And last year of 
the 397,000 people that we removed, 90 percent of those 
removals fell into one of those four categories.
    Ms. Jackson Lee. Do you hold to racial profiling, is that 
how you go and find the individuals that you deport?
    Mr. Mead. I am sorry?
    Ms. Jackson Lee. Do you adhere to, do you seek out--your 
framework, is it about racial profiling? Do you go and pick out 
brown people and others that may look like they shouldn't be 
here, is that how you do it?
    Mr. Mead. Absolutely not.
    Ms. Jackson Lee. Is it fact-based, is it fact-based?
    Mr. Mead. Absolutely.
    Ms. Jackson Lee. All right. Then let me ask my first 
question. Why does the Department of Homeland Security refuse 
to mandate data collection with racial profiling related 
indicators by State and local enforcement as a precondition for 
participating in 287(g) Secure Communities and criminal alien 
programs?
    Mr. Mead. We expect that any 287(g) partner follow the 
guidelines. Where we get indications that there may be problems 
with how they are applying the program investigations ensue and 
we aggressively monitor them.
    Ms. Jackson Lee. Let me tell you as someone who has the 
greatest respect for ICE officers, we work with them all the 
time, we tout the work they do, we are saddened by the loss 
that was experienced this last year, voluntary we think they 
are doing is one thing, but mandating and determining whether 
or not there is racial profiling is another. I am going to make 
an official request that you should carry back to the 
leadership to answer, and I certainly welcome that response to 
this Committee why it is not mandated. The confusion I hear the 
sheriff caring for is he needs to know what to do. And I am 
going to be offended by his deputies who are racially 
profiling. If it was clear that that is unacceptable he would 
not do it. Let me move quickly.
    So I am making that official request for a mandate on data 
collection. I want to move to the gentleman from California. We 
just came out of Alabama on H.B. 56. Are you familiar with that 
bill?
    Mr. Venegas. Yes, ma'am.
    Ms. Jackson Lee. Can you craft the failures of the Secure 
Communities and by extension, your understanding of H.B. 56. 
That is obviously the extreme, people being thrown out of their 
apartments, people not getting light bills and various other 
necessities, can't go to school. What are you seeing? This is a 
fair announcement that the ICE has said, people who are 
frequent and criminal. But you are seeing more, are you not?
    Mr. Venegas. Absolutely. I think what, you know, and with 
all due respect to the elected officials in Alabama and other 
States, the reality is the impact of their legislation has 
affected communities in a wide swath that is negatively 
impacting their States, not only people and families and lives, 
their educational systems, their health systems and every 
aspect of the State of Alabama. With that, I would suggest to 
you that Secure Communities is doing precisely that across the 
country.
    One of the law enforcement leaders in the task force made 
this analogy which, to me, very honestly, was ludicrous, and 
that was we all agreed that Secure Communities was broken and 
that something needed to be done. He said, you know, this is 
like an airplane that is flying and sometimes you got to fix 
the plane while it is on the air. Ladies and gentlemen, I fly a 
lot. I trust my pilot to fly the plane. I don't know that he or 
she is a hell of a good mechanic. And I would suggest to you 
that Secure Communities is exactly in the same boat.
    Mr. Gallegly. The time of the gentlelady is expired. I 
would yield for the purpose of unanimous consent to Mr. King.
    Mr. King. Thank you, Mr. Chairman. I have a unanimous 
consent request to introduce into the record a copy of an 
article in the Daily Herald titled ``Elgin sex offender facing 
his third burglary charge skips bail.'' This document 
identifies the consequences of sanctuary cities in the face of 
this discussion. I ask unanimous consent to enter it into the 
record.
    Mr. Gallegly. Without objection that will be the order.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. I want to thank all of our witnesses today.
    Ms. Jackson Lee. Mr. Chairman, a parliamentary inquiry.
    Mr. Gallegly. The lady will state her parliamentary 
inquiry.
    Ms. Jackson Lee. Members have the privilege of submitting 
commentary into the record. Is it relevant to inquire what 
answer or what is the premise of his submission to the record? 
Was he answering a Member's questioning or was he responding to 
a witness' point that was made?
    Mr. Gallegly. If the gentleman would like to expand on 
his--I don't necessarily see that that is a requirement, but if 
it would make the gentlelady feel a little more at ease, I 
would give the gentleman an opportunity to respond.
    Mr. King. Thank you, Mr. Chairman. I thank the gentlelady 
from Texas for the inquiry. This addresses a subject matter 
that we discussed here in this hearing with regard to the 
effect of sanctuary cities. And I did ask the specific 
question, does that change the policy with Secure Communities? 
And this article demonstrates how an individual who had twice 
been arrested for serious felonies before was released because 
of a city ordinance that rather than to be released--rather 
than to be held for ICE. The city ordinance was a sanctuary 
city-city ordinance. He was released into the community and he 
broke into a home with a young lady in it and robbed her, and 
now he is on the loose. So this is the kind of thing that 
illustrates, I think, the crimes that we could prevent if we 
have effective Secure Communities.
    Ms. Lofgren. Reserving the right to object, so I can say 
something.
    Mr. Gallegly. I would yield to the gentlelady.
    Ms. Lofgren. Because I will not object. We have a very 
expansive--when I chaired the Committee and the current 
Chairman has a very expansive view toward putting things in the 
record, and I think that is the appropriate approach.
    Mr. Gallegly. I think that the record would show that we 
have been pretty liberal----
    Ms. Lofgren. I agree.
    Mr. Gallegly [continuing]. With everyone's request.
    Mr. King. Mr. Chairman, I would like to object to being 
called liberal.
    Ms. Lofgren. I would like to note however, again reserving 
the right to object, I could put in a dozen cases of people who 
were pulled over because of a taillight or because they had 
their high beams on and they were arrested because they didn't 
have a license because they were undocumented or because they 
were Latino, which is why we have 93 percent of the people 
removed are Latino does not reflect the demographics. And with 
that, I lift my reservation.
    Ms. Jackson Lee. Mr. Chairman, may I reserve the right to 
object?
    Mr. Gallegly. You certainly have the right.
    Ms. Jackson Lee. Thank you, Mr. Chairman. And I will not 
object. Following the gentlelady's comment, I wanted to say to 
Mr. King I was not objecting to the Chairman's very right order 
of allowing you to submit. I wanted to clarify that we were not 
indicting ICE because I just had ICE list all the bad guys they 
try and get, and that is a bad guy that you would certainly be 
in line to find.
    And I just wanted to be clear that you weren't putting it 
in to say that ICE had not done their job. I don't know about 
sanctuary cities. I think we need to find common ground. But I 
know that ICE is carrying on their duties as they should.
    Mr. King. If the gentlelady would yield.
    Mr. Gallegly. I will allow the gentleman from Iowa to 
respond and then we will move on.
    Ms. Jackson Lee. I thank the Chairman.
    Mr. King. I would just state that the gentlelady from Texas 
and I don't disagree with the intent of this discussion, in 
that this article that I have introduced into the record 
actually clarifies that ICE wanted to hold them and respond but 
the city ordinance directed them to release. So I would yield 
back.
    Mr. Gallegly. The time of the gentleman has expired. Again, 
I would like to thank the witnesses again, not only for your 
testimony, but for listening to our discussion up here on 
whether or not we should enter things into the record. Without 
objection, all Members will have 5 legislative days to submit 
to the Chair additional written questions for the witnesses 
which we will forward to the witnesses to respond as promptly 
as you will be able to get answers back to us so that we make 
them a part of the record of the hearing. And without objection 
all Members will have 5 legislative days to submit any 
additional materials for inclusion into the record.
    Again, thank you all for your participation today, and even 
more for the service that you provide every day. Thank you. The 
Subcommittee stands adjourned.
    [Whereupon, at 3 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Lamar Smith, a Representative in 
   Congress from the State of Texas, and Chairman, Committee on the 
                               Judiciary
    Immigration and Customs Enforcement's (ICE) primary mission is to 
promote public safety through criminal and civil enforcement of federal 
immigration laws.
    As part of ICE's mission, the agency attempts to identify and 
remove illegal immigrants. Through Secure Communities, ICE uses 
existing information sharing between the U.S. Department of Homeland 
Security (DHS) and the Department of Justice (DOJ) to quickly and 
accurately identify immigrants who are arrested for a crime and booked 
into local law enforcement custody.
    Under this program, the fingerprints of everyone arrested and 
booked are checked against FBI criminal history records and DHS 
immigration records to determine if immigration enforcement action is 
required.
    Secure Communities is an important and effective immigration law 
enforcement program. This program simply makes sense. Who wouldn't want 
to deport a criminal immigrant? But advocates for amnesty have raised 
opposition for one reason and one reason alone: Secure Communities 
works.
    Unfortunately, Secure Communities has fallen prey to the White 
House's demands that DHS bypass Congress and use discretionary 
Executive Branch authorities to grant back-door amnesty. While the 
program will be operational in all jurisdictions by 2013, DHS has 
announced ``changes'' to Secure Communities that could potentially 
allow millions of illegal and criminal immigrants to avoid deportation 
and work in the U.S, taking jobs away from Americans.
    On August 22, 2011, I sent DHS a written request for information 
about removable illegal and criminal immigrants brought to the 
attention of ICE through Secure Communities on whom ICE elected not to 
take action. The Committee needs to determine which of these immigrants 
went on to commit additional crimes.
    To date, I have not received the information requested, which 
forced the issuance of a subpoena. Apparently, the administration 
doesn't want the American public to know what the facts are.
    The Obama administration's refusal to fully enforce immigration 
laws allows illegal immigrants to work legally in the United States, 
forcing millions of unemployed Americans to compete with them for 
scarce jobs.
    The Obama administration remains on the wrong side of the American 
people when it comes to illegal immigration. According to a recent 
poll, two-thirds of the American people want to see our immigration 
laws enforced.
    The administration is putting illegal immigrants ahead of the 
interests of American taxpayers and unemployed Americans. The 
administration should enforce all the laws on the books, not just the 
ones it likes.

                                <F-dash>

 Material submitted by the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Ranking Member, Subcommittee 
                 on Immigration Policy and Enforcement
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
